NOT FOR PUBLICATION

FILED

UNITED STATES COURT OF APPEALS

MAY 13 2020
MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
GLEN JONES WARD,

U.S. COURT OF APPEALS

No. 19-35510

Plaintiff-Appellant,

D.C. No. 1:18-cv-00471 -DCN

v.
MEMORANDUM*
CORIZON, Medical/Custodial Trustee for
the State of Idaho Department of
Corrections,
Defendant-Appellee.
Appeal from the United States District Court
for the District of Idaho
David C. Nye, District Judge, Presiding
Submitted May 6, 2020**
Before:

BERZON, N.R. SMITH, and MILLER, Circuit Judges.

Idaho state prisoner Glen Jones Ward appeals pro se from the district court’s
judgment dismissing his 42 U.S.C. § 1983 action arising out of the denial of a
special diet to address his numerous food allergies. We have jurisdiction under 28

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

U.S.C. § 1291. We review de novo. Watison v. Carter, 668 F.3d 1108, 1112 (9th
Cir. 2012) (dismissal for failure to state a claim under 28 U.S.C. §
1915(e)(2)(B)(ii»; Resnick v. Hayes, 213 F.3d 443, 447 (9th Cir. 2000) (dismissal
for failure to state a claim under 28 U.S.C. § 1915A). We affirm.
The district court properly dismissed Ward’s action because Ward failed to
allege facts sufficient to demonstrate that he suffered a constitutional violation as a
result of an official policy or custom of Corizon. See Hebbe v. Pliler, 627 F.3d
338, 341-42 (9th Cir. 2010) (although pro se pleadings are construed liberally,
plaintiff must present factual allegations sufficient to state a plausible claim for
relief); see also Tsao v. Desert Palace, Inc., 698 F.3d 1128, 1139 (9th Cir. 2012)
(to state a § 1983 claim against a private entity that acts under color of state law, a
plaintiff must show that a constitutional violation “was caused by an official policy
or custom of [the private entity]”).
The district court did not abuse its discretion in denying Ward further leave
to amend because amendment would have been futile. See Gordon v. City of
Oakland, 627 F.3d 1092, 1094 (9th Cir. 2010) (setting forth standard of review and
explaining that leave to amend may be denied if amendment would be futile);
Chodos v. WestPubl’g Co., 292 F.3d 992, 1003 (9th Cir. 2002) (explaining that a
district court’s discretion to deny leave to amend is “particularly broad” when it
has previously granted leave to amend).

2

19-35510

We do not consider matters not specifically and distinctly raised and argued
in the opening brief, or arguments and allegations raised for the first time on
appeal. See Padgett v. Wright, 587 F.3d 983, 985 n.2 (9th Cir. 2009).
We do not consider facts or documents that were not raised before the
district court. See United States v. Elias, 921 F.2d 870, 874 (9th Cir. 1990).
All pending motions and requests are denied.
AFFIRMED.

3

19-35510

©cm per-c
UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT
JUN 04 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

GLEN JONES WARD,
Plaintiff - Appellant,
v.
CORIZON, Medical/Custodial Trustee
for the State of Idaho Department of
Corrections,

No. 19-35510
D.C. No. 1:18-cv-00471 -DCN
U.S. District Court for Idaho, Boise
MANDATE

Defendant - Appellee.

The judgment of this Court, entered May 13, 2020, takes effect this date.
This constitutes the formal mandate of this Court issued pursuant to Rule
41 (a) of the Federal Rules of Appellate Procedure.
FOR THE COURT:
MOLLY C. DWYER
CLERK OF COURT
By: Craig Westbrooke
Deputy Clerk
Ninth Circuit Rule 27-7

UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT
AUG 30 2019
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

GLEN JONES WARD,
Plaintiff - Appellant,
v.
CORIZON, Medical/Custodial Trustee
for the State of Idaho Department of
Corrections,

No. 19-35510
D.C. No. 1:1 S-cv-00471 -DCN
U.S. District Court for Idaho, Boise
ORDER

Defendant - Appellee.

Appellant Glen Jones Ward, prison identification number 111351, has been
granted leave to proceed in forma pauperis in this appeal and has completed and
filed the required authorization form directing the appropriate prison officials to
assess, collect, and forward to the district court the filing and docketing fees for
this appeal pursuant to 28 U.S.C. § 1915(b)(1) and (2). This court hereby assesses
an initial filing fee of 20 percent of the greater of (A) the average monthly deposits
to the prisoner's account; or (B) the average monthly balance in the prisoner's
account for the six-month period immediately preceding the filing of the June 6,
2019 notice of appeal. Appellant is not responsible for payment when the funds in

appellant's prison trust account total less than $10, but payments must resume
when additional deposits are made or funds are otherwise available.
The Clerk shall serve this order and appellant's completed authorization
form on the Attorney General for the State of Idaho, who shall notify the
appropriate agency or prison authority responsible for calculating, collecting, and
forwarding the initial payment assessed in this order and for assessing, collecting,
and forwarding the remaining monthly payments of the fee to the district court for
this appeal. See 28 U.S.C. § 1915(b)(2). Each payment should be accompanied by
the district court and appellate docket numbers for this appeal and a record of
previous payments made for this appeal.
The Clerk shall also serve a copy of this order on the clerk and the financial
unit of the district court.
FOR THE COURT:
MOLLY C. DWYER
CLERK OF COURT
By: Cyntharee K. Powells
Deputy Clerk
Ninth Circuit Rule 27-7

Case l:18-cv-00471-DCN Document 15 Filed 05/29/19 Page 1 of 9

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF IDAHO
GLEN JONES WARD,
Case No. l:18-cv-00471-DCN
Plaintiff,
SUCCESSIVE REVIEW ORDER BY
SCREENING JUDGE

v.
CORIZON,
Defendant.

Plaintiff Glen Jones Ward is a prisoner proceeding pro se and in forma pauperis in
this civil rights action. The Court previously reviewed Plaintiffs complaint pursuant to
28 U.S.C. §§ 1915 and 1915A, determined that it failed to state a claim upon which relief
could be granted, and allowed Plaintiff an opportunity to amend. See Initial Review
Order, Dkt. 8.
Plaintiff has now filed an amended complaint.1 Dkt. 13. The Court retains its
screening authority pursuant to 28 U.S.C. §§ 1915(e)(2) and 1915A(b). Having reviewed

i

Plaintiff has also filed various other documents. See Dkt. 9, 10, 11. However, Plaintiff was previously
advised that, in screening the amended complaint, the Court would consider only the amended complaint
itself. Dkt. 9 at 12 (“[A]ny amended complaint must contain all of Plaintiff s allegations in a single
pleading and cannot rely upon, attach, or incorporate by reference other pleadings or documents.”) (citing,
among other sources, Dist. Idaho Loc. Civ. R. 15.1). Therefore, in determining whether the amended
complaint states a plausible claim, the Court has not considered the allegations in any other filings
submitted by Plaintiff.
SUCCESSIVE REVIEW ORDER BY SCREENING JUDGE - 1

Case l:18-cv-00471-DCN Document 15 Filed 05/29/19 Page 2 of 9

the amended complaint, the Court concludes that Plaintiff has failed to remedy the
deficiencies in his initial complaint, and the Court will dismiss this case with prejudice.
1.

Screening Requirement
As explained in the Initial Review Order, the Court must dismiss a prisoner or in

forma pauperis complaint—or any portion thereof—that states a frivolous or malicious
claim, fails to state a claim upon which relief may be granted, or seeks monetary relief
from a defendant who is immune from such relief. 28 U.S.C. §§ 1915(d)(2) & 1915A(b).
2.

Pleading Standard
A complaint must contain “a short and plain statement of the claim showing that

the pleader is entitled to relief.” Fed. R. Civ. P. 8(a)(2). A complaint fails to state a claim
for relief under Rule 8 if the factual assertions in the complaint, taken as true, are
insufficient for the reviewing court plausibly “to draw the reasonable inference that the
defendant is liable for the misconduct alleged.” Ashcroft v. Iqbal, 556 U.S. 662, 678
(2009). “[Djetailed factual allegations” are not required, but a plaintiff must offer “more
than ... unadorned, the-defendant-unlawfully-harmed-me accusation[s].” Id. (internal
quotation marks omitted). If the facts pleaded are “merely consistent with a defendant’s
liability,” or if there is an “obvious alternative explanation” that would not result in
liability, the complaint has not stated a claim for relief that is plausible on its face. Id. at
678, 682 (internal quotation marks omitted).
3.

Factual Allegations
Plaintiff alleges that Defendant Corizon—the private company providing medical

care to Idaho inmates under contract with the Idaho Department of Correction
SUCCESSIVE REVIEW ORDER BY SCREENING JUDGE - 2

Case l:18-cv-00471-DCN Document 15 Filed 05/29/19 Page 3 of 9

(“IDOC”)—has engaged in “willfull and wanton neglect” by failing to provide Plaintiff
with a memo for a medical diet that contains only certain foods. Am. Compl., Dkt. 13, at
2. Plaintiff has GERD and therefore experiences negative effects when he eats certain
foods.
Plaintiff “react[s]” to many foods, herbs, and spices: potatoes, chocolate, citrus oil,
sage, mint, beans, soy, blueberries, cherries, MSG, artificial sweeteners, cashews,
walnuts, peanuts, some dairy products, thyme, chamomile, alfalfa, turmeric, some fish,
caffeine, apples, oranges, peas, pineapples, and artichokes. Id. at 3-4. Plaintiff does not
describe his reactions to all these foods, but at least with respect to potatoes, Plaintiff
suffers nausea, canker sores, vomiting, “throbbing,” and troubled breathing if he eats
them. Id. at 5.
Plaintiffs medical tests have been negative for food allergies, but Corizon medical
providers have diagnosed him with “sensitivity” or “intolerance” to certain foods. Id. at
4; Dkt. 13-1 at 1-2. Prison medical providers have prescribed medication to Plaintiff that
Plaintiff states he already tried to no avail; Plaintiff also claims that the providers are
treating him like a “lab rat” by experimenting with medication instead of ensuring he has
a diet that excludes all the above-listed items. Dkt 13 at 3. Plaintiff has tried gas tablets to
allay his symptoms but has suffered side effects from such tablets. Id. Plaintiffs
providers have evaluated him and determined that a special medical diet is not “medically
indicated.” Dkt. 13-1 at 1.

SUCCESSIVE REVIEW ORDER BY SCREENING JUDGE - 3

Case l:18-cv-00471-DCN Document 15 Filed 05/29/19 Page 4 of 9

Corizon is the only identified Defendant that can be subjected to suit in federal
court.2
4.

Discussion
A.

Section 1983 Claims

Plaintiff brings claims under 42 U.S.C. § 1983, the civil rights statute. To state a
plausible civil rights claim, a plaintiff must allege a violation of rights protected by the
Constitution or created by federal statute proximately caused by conduct of a person
acting under color of state law. Crumpton v. Gates, 947 F.2d 1418, 1420 (9th Cir. 1991).
To be liable under § 1983, “the defendant must possess a purposeful, a knowing, or
possibly a reckless state of mind.” Kingsley v. Hendrickson, 135 S. Ct. 2466, 2472
(2015). Negligence is not actionable under § 1983, because a negligent act by a public
official is not an abuse of governmental power but merely a “failure to measure up to the
conduct of a reasonable person.” Daniels v. Williams, 474 U.S. 327, 332 (1986).

2 The “Defendant(s)” section of the caption of the amended complaint reads:
OPPOSING PARTY(S); INCLUD(ING) <WITHOUT LIMIT(ING)>
TO: CORIZON HEALTHCARE SERVICE(S)
[MEDICAL/CUSTODIAL TRUSTEE]; AS/WITH: STATE OF IDAHO;
IDAHO DEPARTMENT OF CORRECTIONS; AND ALL
SUCCEEDING [CORPORATE/CAPTIVE/CUSTODIAL-TRUST(S)
ASSIGN(S) <1 U.S.C. §§ 1—>207 ALL: et.seq>; OFFICER(S);
OUTREACH(ES) <29 USC> OF: ALL MEDICAL AND SECURITY
STAFF; AT ALL (PREVIOUS & CURRENT FACILITIES CUSTODIAL TRUSTEES <ALLEGED>.
Am. Compl. at 1. To the extent Plaintiff intended to name the State of Idaho and IDOC as Defendants in
this action, his claims against those entities are implausible. States and state entities are immune from suit
in federal court under the Eleventh Amendment absent a waiver of sovereign immunity. See Hans v.
Louisiana, 134 U.S. 1, 16-18 (1890); Pennhurst State Sch. & Hosp. v. Halderman, 465 U.S. 89, 100
(1984). Further, describing potential defendants as “all staff,” “all officers,” or “all successors” does not
adequately identify any such defendant.

SUCCESSIVE REVIEW ORDER BY SCREENING JUDGE - 4

Case l:18-cv-00471-DCN Document 15 Filed 05/29/19 Page 5 of 9

As explained in the Initial Review Order, to state a plausible § 1983 claim against
Corizon, Plaintiff must plausibly allege that the execution of an official policy or
unofficial custom inflicted the injury of which the plaintiff complains, as required by
Monell v. Department ofSocial Services ofNew York, 436 U.S. 658, 694 (1978). See also
Tsao v. Desert Palace, Inc., 698 F.3d 1128, 1139 (9th Cir. 2012) (applying Monell to
private entities performing a government function). Under Monell, the requisite elements
of a § 1983 claim against a municipality or private entity performing a state function are
the following: (1) the plaintiff was deprived of a constitutional right; (2) the municipality
or entity had a policy or custom; (3) the policy or custom amounted to deliberate
indifference to plaintiffs constitutional right; and (4) the policy or custom was the
moving force behind the constitutional violation. Mabe v. San Bernardino Cnty., 237
F.3d 1101, 1110-11 (9th Cir. 2001).
A policy or custom “may not be proved through reference to a single
unconstitutional incident unless proof of the incident includes proof that it was caused by
an existing unconstitutional policy.” Rogan v. City ofLos Angeles, 668 F. Supp. 1384,
1395 (C.D. Cal. 1987) (internal quotation marks and alteration omitted). An unwritten
policy or custom must be so “persistent and widespread” that it constitutes a “permanent
and well settled” practice. Monell, 436 U.S. at 691 (quoting Adickes v. S.H. Kress & Co.,
398 U.S. 144, 167-168 (1970)). “Liability for improper custom may not be predicated on
isolated or sporadic incidents; it must be founded upon practices of sufficient duration,
frequency and consistency that the conduct has become a traditional method of carrying
out policy.” Trevino v. Gates, 99 F.3d 911,918 (9th Cir. 1996).
SUCCESSIVE REVIEW ORDER BY SCREENING JUDGE - 5

Case l:18-cv-00471-DCN Document 15 Filed 05/29/19 Page 6 of 9

Prisoners have an Eighth Amendment right to adequate medical care, and prison
officials or prison medical providers can be held liable if their “acts or omissions [were]
sufficiently harmful to evidence deliberate indifference to serious medical needs.” Estelle
v. Gamble, 429 U.S. 97, 106 (1976). “[Deliberate indifference entails something more
than mere negligence, [but] is satisfied by something less than acts or omissions for the
very purpose of causing harm or with knowledge that harm will result.” Farmer, 511 U.S.
at 835.
A prison official or prison medical provider acts with “deliberate indifference ...
only if the [prison official or provider] knows of and disregards an excessive risk to
inmate health and safety.” Gibson v. Cnty. of Washoe, 290 F.3d 1175, 1187 (9th Cir.
2002) (internal quotation marks omitted), overruled on other grounds by Castro v. Cty. of
Los Angeles, 833 F.3d 1060 (9th Cir. 2016) (en banc). “Under this standard, the
[defendant] must not only ‘be aware of facts from which the inference could be drawn
that a substantial risk of serious harm exists,’ but that person ‘must also draw the
inference.’” Toguchi v. Chung, 391 F.3d 1051, 1057 (9th Cir. 2004) (quoting Farmer,
511 U.S. at 837).
Plaintiff has failed to plausibly allege that the diagnosis and treatment decisions of
his prison medical providers were the result of a policy or custom of Corizon, rather than
the result of the individual medical providers’ independent medical judgments. A medical
provider’s action does not mean that the entity has a policy or practice requiring that
action. The provider’s action might be consistent with such a policy, but mere
consistency is not enough to state a claim under § 1983. Bell Atlantic Corp. v. Twombly,
SUCCESSIVE REVIEW ORDER BY SCREENING JUDGE - 6

Case l:18-cv-00471-DCN Document 15 Filed 05/29/19 Page 7 of 9

550 U.S. 544, 557 (2007) (holding that where a complaint pleads facts that are “merely
consistent with” a defendant’s liability, the complaint “stops short of the line between
possibility and plausibility of ‘entitlement to relief”). Rather than Corizon having a
policy or custom of denying medical diets, the “obvious alternative explanation” is that
Plaintiffs medical providers each exercised their medical judgment in determining that
Plaintiff did not require a medical diet. Id. at 682 (internal quotation marks omitted).
Further, the amended complaint plausibly alleges only that Plaintiff disagrees with
his medical providers’ assessment that a special diet is not medically indicated. Such
disagreements do not establish deliberate indifference. Sanchez v. Vild, 891 F.2d 240, 242
(9th Cir. 1989). Thus, Plaintiff has not stated a plausible claim for relief under § 1983
claim.
B.

Claims Based on Other Statutes

Plaintiff also cites numerous other federal and state statutes, without providing
allegations that support a reasonable inference that Corizon is liable under any of those
statutes. He offers precisely the type of “[tjhreadbare recitals...supported by mere
conclusory statements,” that the Court need not accept as true under Rule 8 or under
§§ 1915 and 1915A. Iqbal, 556 U.S. at 678. Additionally, Plaintiffs reliance on the
criminal code is misplaced. See Aldabe v. Aldabe, 616 F.2d 1089, 1092 (9th Cir. 1980)
(no private right of action under federal criminal statute); Yoakum v. Hartford Fire Ins.
Co., 923 P.2d 416, 421 (Idaho 1996) (no private right of action under state criminal
statute); Linda R.S. v. RichardD., 410 U.S. 614, 619 (1973) (“[A] private citizen lacks a
judicially cognizable interest in the prosecution or nonprosecution of another.”); Johnson
SUCCESSIVE REVIEW ORDER BY SCREENING JUDGE - 7

Case l:18-cv-00471-DCN Document 15 Filed 05/29/19 Page 8 of 9

v. Craft, 673 F. Supp. 191, 193 (D. Miss. 1987) (“The decision to prosecute a particular
crime is within the authority of the state, and there appears to be no federal constitutional
right to have criminal wrongdoers brought to justice.”).
5.

Conclusion
For the foregoing reasons, the Amended Complaint is subject to dismissal for

failure to state a claim upon which relief may be granted.
Although pro se pleadings must be liberally construed, “a liberal interpretation of
a civil rights complaint may not supply essential elements of the claim that were not
initially pled.” Ivey v. Bd. ofRegents ofUniv. ofAlaska, 673 F.2d 266, 268 (9th Cir.
1982). Because Plaintiff has already been given the opportunity to amend and still has
failed to state a plausible claim for relief, the Court will dismiss the Amended Complaint
with prejudice and without further leave to amend. See Knapp v. Hogan, 738 F.3d 1106,
1110 (9th Cir. 2013) (“When a litigant knowingly and repeatedly refuses to conform his
pleadings to the requirements of the Federal Rules, it is reasonable to conclude that the
litigant simply cannot state a claim.”).
Ill
III
III
III
III
III

SUCCESSIVE REVIEW ORDER BY SCREENING JUDGE - 8

Case l:18-cv-00471-DCN Document 15 Filed 05/29/19 Page 9 of 9

ORDER
IT IS ORDERED:
1.

The Amended Complaint fails to state a claim upon which relief may be
granted. Therefore, for the reasons stated in this Order and the Initial
Review Order (Dkt. 8), this entire case is DISMISSED with prejudice
pursuant to 28 U.S.C. §§ 1915(e)(2)(B)(ii) & 1915A(b)(l).

2.

All pending motions (Dkt. 11 and 12) are DENIED AS MOOT.
DATED: May 29, 2019

David C. Nye
Chief U.S. District Court Judge

SUCCESSIVE REVIEW ORDER BY SCREENING JUDGE - 9

Additional material
from this filing is
available in the
Clerk's Office.

